                         CLOSEOUT FOR CASE M-95050020
        On 26 May 1995, the complainant' brought an allegation of misconduct in science to
OIGs attention. The complainant explained that an ad hoc reviewer2 of the subject's3 recent NSF
proposal4 commented that the subject did not share with other scientists samples of biological
cultures5 that he had developed 10 years earlier. The complainant explained that the ad hoc
reviewer discussed his concerns about the subject's failure to share the samples with him.

        The subject's proposal was one of four identical proposals submitted as a collaborative
research project by four PIS fi-om four institution^.^ The collaborative research project was
reviewed as if it were a single proposal. As is NSF's practice, verbatim copies of the ad hoc
reviews were sent to each of the four PIS. One of the PIS wrote to the Division Director defendmg      -
the subject and stating that the ad hoc review addressing the sample-sharing concerns contained
undocumented and unsubstantiated complaints against the subject. The PI categorically denied
that any of the four PIS had done an*      wrong.

       The Acting Division ~irector'explained that, in his view, it was appropriatefor the ad hoe
review containing the discussion about the subject's sample-sharing practices to have been sent to
the four PIS. He explained that sample-sharing problems need to be resolved by the programs
when they occur and sharing the ad hoc reviewer's comments about the problem was one way to
approach the matter. NSF's Grants Proposal Guide (GPG) states that NSF "advocates and
encourages open scientific communication," and that "[ilt expects PIS to share with other
researchers, . . .the data, [and] samples, . . . created or gathered in the course of work" (NSF 95-
27, page 22) Program managers are given the responsibility to "implement these policies, in ways
appropriate to field and circumstances, through the proposal review process . . .." (NSF 95-27,
page 22) In this case, the ad hoc reviewer expressed his concern and the NSF program manager




                                             Page 1 of 2                                  M 95-20
                         CLOSEOUT FOR CASE M-95050020

forwarded the information to the subject. One of the four criteria used as a basis for the selection
of NSF research proposals, performance competence, "covers the investigator's record of past
research accomplishments, including, where significant, communication of findings and sharing of
data and other research products" (NSF 95-27, page 13). OIG found that the panel had briefly
discussed the ad hoc reviewer's comments about the subject's failure to share samples with other
scientists, but that the panel's decision to decline the collaborative research project was based on
substantive scientific grounds and that the issue of sample sharing played no role in its decision.

         OIG contacted the ad hoc reviewer to learn more about the sample-sharing problem. He
told us that he wrote the review intentionally to draw attention to the problem. He said that he had
requested a sample of one of the cultures from the subject on several different occasions over the
last few years, but had never received it.

         OIG's review of the subject's NSF proposal jackets showed that he first reported in 1993
his ability to produce the culture the ad hoc reviewer requested, and that he did not have the ability
to produce the culture 10 years earlier as originally claimed by the ad hoc reviewer. From the time
of this first report until OIG's receipt of the allegation, the subject had the knowledge to produce
the culture; however, a combination of health problems and his laboratory's relocation adversely
affected his ability to supply the culture sample to the ad hoc reviewer. As a result of this
information, OIG elected to wait an academic year before contacting the ad hoc reviewer again to
learn if he had received the requested culture sample from the subject. When OIG contacted the
ad hoc reviewer, he explained that a group of scientists involved with this matter had met at a
scientific meeting and discussed the need to share samples freely. He explained that he was very
pleased with the outcome of the meeting and that everyone present, including the subject, agreed
to share samples. The ad hoc reviewer expressed his confidence that the subject would supply him
with the sample he requested. From the information available to OIG at this time, we concluded
that the matter of sample sharing is progressing in a positive manner and that there is no need for
OIG to remain involved. In the future, either the ad hoc reviewer or the complainant is free to
bring additional allegations about this matter to our attention if it should prove necessary.

       This case should be closed and no further action will be taken.

cc: Staff Scientist, Attorney, Acting Deputy AIG-Oversight, AIG Oversight, IG




                                             Page 2 of 2
